<html>
<title> - A REVIEW OF GAO'S FINDINGS AND RECOMMENDATIONS REGARDING THE DEPARTMENT OF ENERGY'S EFFORTS TO CONSOLIDATE SURPLUS PLUTONIUM INVENTORIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
A REVIEW OF GAO'S FINDINGS AND RECOMMENDATIONS REGARDING THE DEPARTMENT 
    OF ENERGY'S EFFORTS TO CONSOLIDATE SURPLUS PLUTONIUM INVENTORIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2005

                               __________

                           Serial No. 109-56

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

24-254                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001















                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director
        David Cavicke, Deputy Staff Director and General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                    ED WHITFIELD, Kentucky, Chairman

CLIFF STEARNS, Florida               BART STUPAK, Michigan
CHARLES W. ``CHIP'' PICKERING,         Ranking Member
Mississippi                          DIANA DeGETTE, Colorado
CHARLES F. BASS, New Hampshire       JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  JAY INSLEE, Washington
MIKE FERGUSON, New Jersey            TAMMY BALDWIN, Wisconsin
MICHAEL C. BURGESS, Texas            HENRY A. WAXMAN, California
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)












                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Aloise, Gene, Director, Natural Resources and the 
      Environment, U.S. Government Accountability Office.........     6
    Anderson, Charles E., Principal Deputy Assistant Secretary of 
      Environmental Management, U.S. Department of Energy........     7
    Eggenberger, A.J., Chairman, Defense Nuclear Facility Safety 
      Board; accompanied by Jack Mansfield and Bruce Matthews....    11
Additional material received for the record:
    Anderson, Charles E., Principal Deputy Assistant Secretary of 
      Environmental Management, U.S. Department of Energy, 
      response for the record....................................    28

                                 (iii)

  













A REVIEW OF GAO'S FINDINGS AND RECOMMENDATIONS REGARDING THE DEPARTMENT 
    OF ENERGY'S EFFORTS TO CONSOLIDATE SURPLUS PLUTONIUM INVENTORIES

                              ----------                              


                        FRIDAY, OCTOBER 7, 2005

                  House of Representatives,
                  Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m., in 
room 2123, Rayburn House Office Building, Hon. Ed Whitfield 
(chairman) presiding.
    Members present: Representatives Whitfield, Burgess, 
Blackburn, Stupak, and Inslee.
    Staff present: Dwight Cates, majority professional staff; 
Mark Paoletta, chief counsel; Terry Lane; deputy communications 
director; Jonathan Pettibon, clerk; and Chris Knauer, minority 
professional staff.
    Mr. Whitfield. I will call the meeting to order, and the 
subject of today's hearing is a review of the GAO's findings 
and recommendations regarding the Department of Energy's 
efforts to consolidate surplus plutonium inventories.
    I certainly want to thank our witnesses for being here 
today, Mr. Gene Aloise, who is the Director of the Natural 
Resources and the Environment, U.S. Government Accountability 
Office; Mr. Charles Anderson, who is the Principal Deputy 
Assistant Secretary of Environmental Management at the United 
States Department of Energy, and Dr. A.J. Eggenberger, who is 
Chairman of the Defense Nuclear Facility Safety Board.
    We appreciate all of you being here and we certainly look 
forward to your testimony. At this time I would give my opening 
statement.
    Today the subcommittee will review the findings and 
recommendations of a Government Accounting Office report 
requested by this committee regarding the Department of 
Energy's efforts to consolidate plutonium inventories. Over the 
past several years the Oversight and Investigations 
Subcommittee has held several hearings on the status of 
security at DOE nuclear facilities.
    Several DOE sites contain tons of nuclear material that 
could be used against the U.S. if they fell into the hands of a 
terrorist organization. Consequently the security and 
protection of domestic DOE nuclear facilities has been a 
critical first line of defense against terrorism.
    The Department has made several significant changes to its 
security policy in the years since September 11th, 2001, that 
have resulted in considerable improvements to physical security 
at each DOE nuclear facility. These improvements are largely 
driven by changes to the Design Basis Threat, a classified 
document that estimates the size and characteristicsof an 
advisory force that each nuclear facility must defend against. 
In response, the Department made immediate upgrades to physical 
security and hired more guards in the aftermath of 9/11.
    The Department continues to refine the characteristics of 
the postulated adversary, and the Design Basis Threat was most 
recently revised in October of 2004. Each change to the Design 
Basis Threat has required additional security upgrades and more 
guards.
    In our May 2004 hearing, then Deputy Secretary Kyle 
McSlarrow identified several additional security initiatives 
the Department would undertake. Among these, Deputy Secretary 
McSlarrow outlined an important initiative to consolidate and 
centralize the storage of high-risk nuclear materials. The 
consolidation of nuclear materials stored at multiple 
facilities down to just a few facilities could result in 
security improvements and significant cost savings.
    I am please that Secretary Bodman has committed to continue 
the Department's initiative to consolidate these materials. 
Earlier this year the Secretary created a Nuclear Materials 
Consolidation and Coordination Committee to determine how and 
where a nuclear materials facility should be consolidated.
    Today's hearing will focus on the findings and 
recommendations of the GAO that reviewed the Department's 
ongoing efforts to consolidate surplus plutonium inventories at 
the Savannah River site in South Carolina.
    Mr. Gene Aloise, Director of Natural Resources and 
Environment, will provide the testimony about GAO's findings 
and recommendations. GAO's written testimony indicates that the 
Department has had considerable trouble over the past several 
years following through on its commitment to consolidate 
plutonium inventories at Savannah River.
    Some of these difficulties relate to technical issues that 
are not easily resolved, while other problems stem from the 
lack of a comprehensive strategy and ineffective coordination 
among the many sites that store the plutonium.
    We strongly endorse GAO's recommendations that DOE develop 
a comprehensive strategy to consolidate, store, and eventually 
dispose of its plutonium. I hope the Department can soon 
finalize a disposition plan for the plutonium and complete the 
necessary safety upgrades at Building 105-K at the Savannah 
River site so that we can move forward with plutonium storage 
and consolidation.
    I hope the Department will continue to investigate all 
available consolidation options, including opportunities to 
consolidate nuclear materials at other DOE sites where existing 
buildings can be used for nuclear materials storage.
    We look forward to hearing the testimony of Mr. Charles 
Anderson as well, and certainly Dr. Eggenberger. And with that 
I would recognize the ranking minority member, Mr. Stupak.
    [The prepared statement of Hon. Ed Whitfield follows:]
  Prepared Statement of Hon. Ed Whitfield, Chairman, Subcommittee on 
                      Oversight and Investigations
    This hearing will come to order. Today the Subcommittee will review 
the findings and recommendations of a Government Accountability Office 
report, requested by this committee, regarding the Department of 
Energy's efforts to consolidate plutonium inventories.
    Over the past several years, the Oversight and Investigations 
Subcommittee has held numerous hearings on the status of security at 
DOE nuclear facilities. Several DOE sites contain tons of nuclear 
material that could be used in devastating attacks if they fell into 
the hands of a terrorist organization. Consequently, the security and 
protection of domestic DOE nuclear facilities has been a critical first 
line of defense against terrorism.
    The Department has made several significant changes to its security 
policy in the years since September 11th , 2001, that have resulted in 
considerable improvements to physical security at each DOE nuclear 
facility. These improvements are largely driven by changes to the 
``design basis threat''--a classified document that estimates the size 
and characteristics of an adversary force that each nuclear facility 
must defend against. In response, the Department made immediate 
upgrades to physical security and hired more guards in the aftermath of 
9-11. The Department continues to refine the characteristics of the 
postulated adversary, and the design basis threat was most recently 
revised in October of 2004. Each change to the design basis threat has 
required additional security upgrades and more guards.
    At our May 2004 hearing, then-Deputy Secretary Kyle McSlarrow 
identified several additional security initiatives the Department would 
undertake. Among these, Deputy Secretary McSlarrow outlined an 
important initiative to consolidate and centralize the storage of high-
risk nuclear materials. The consolidation of nuclear materials stored 
at multiple facilities down to just a few facilities could result in 
security improvements and significant cost savings.
    I am pleased that Secretary Bodman is committed to continue the 
Department's initiative to consolidate nuclear materials. Earlier this 
year Secretary Bodman created a Nuclear Materials Consolidation and 
Coordination Committee to determine how and where nuclear materials 
should be consolidated.
    Today's hearing will focus on the findings and recommendations of 
the GAO that reviewed the Department's ongoing efforts to consolidate 
surplus plutonium inventories at the Savannah River Site in South 
Carolina. Mr. Gene Aloise, Director of Natural Resources and 
Environment, will provide testimony about GAO's findings and 
recommendations.
    GAO's written testimony indicates that the Department has had 
considerable trouble over the past several years following-through on 
its commitment to consolidate plutonium inventories at the Savannah 
River Site. Some of these difficulties relate to technical issues that 
are not easily resolved, while other problems stem from the lack of a 
comprehensive strategy and ineffective coordination among the many 
sites that store plutonium.
    I strongly endorse GAO's recommendation that DOE ``develop a 
comprehensive strategy to consolidate, store, and eventually dispose of 
its plutonium.''
    I hope the Department can soon finalize a disposition plan for 
plutonium, and complete the necessary safety upgrades at building 105-K 
at the Savannah River Site so that we can move forward with plutonium 
storage and consolidation. I hope the Department will continue to 
investigate all available consolidation options, including 
opportunities to consolidate nuclear materials at other DOE sites where 
existing buildings could be used for nuclear material storage.
    I look forward to hearing the testimony of Mr. Charlie Anderson, 
Principal Deputy Assistant Secretary for Environmental Management, 
regarding DOE's plans for plutonium consolidation, as well as the 
testimony of Dr. A.J. Eggenberger of the Defense Nuclear Facility 
Safety Board. I yield back.

    Mr. Stupak. Thank you, Mr. Chairman. Mr. Chairman, today is 
a hearing on plutonium consolidation and the findings by GAO 
that DOE has still not made adequate progress in this area.
    While this is an important subject, we were only given 
notice of this hearing late last Friday, and unfortunately we 
have a major energy bill on the floor today. I and many others 
from this committee will need to be present for that debate, so 
we will do our best to be in both places.
    Mr. Chairman, I do want to thank GAO for the report that 
they provided to this committee. They will discuss today that 
DOE still cannot consolidate its excessive plutonium at the 
Savannah River site, despite having been on notice to do so for 
several years.
    As GAO has already noted in the report issued in July, DOE 
was unable to complete a plan to process the plutonium into a 
form for permanent storage. This is a requirement under the 
National Defense Authorization Act. Unfortunately, because no 
plan was in place, DOE is not allowed to ship any additional 
plutonium to Savannah River until such a plan is created.
    Also, according to GAO, Savannah River cannot receive all 
of the plutonium from DOE's Hanford site because it is not in a 
form that Savannah River planned to receive and store.
    Mr. Chairman, GAO will also tell us that DOE lacks the 
capability to fully monitor the condition of the plutonium 
necessary to ensure continual safe storage. According to GAO, 
the facility at Savannah River that DOE intends to use for 
material storage purposes lacks adequate safety systems, 
including proper monitoring capability. Without proper 
monitoring capability, DOE faces increased risk of an 
accidental plutonium release that could harm the public, 
workers and the environment.
    Mr. Chairman, I know you agree with me that this is 
unacceptable, and I would urge you to have this matter 
addressed and even bring the Secretary of Energy before the 
committee to discuss the matter if we wish to see faster 
results.
    If we do not hold these agencies and departments 
accountable for the repeated problems that GAO and the 
Inspectors General keep finding, then the issue will never 
beresolved, at least not in our lifetime.
    Mr. Chairman, let me conclude by saying that I notice that 
Secretary Bodman was invited to this hearing but declined to 
attend. This is unfortunate, because had he been here I would 
have had a number of questions for him about the high fuel 
prices we are expected to see again later this year.
    As you know, I have repeatedly requested that this 
committee hold hearings on the skyrocketing cost of home 
heating fuel oil, including oil, propane and natural gas. My 
constituents live in the coldest districts of this country. In 
fact last night it was in the mid-20's and we are having snow.
    They are being told that in some cases they should expect 
their energy bills to more than double this winter. For some 
this may mean the difference between staying warm or staying 
fed. Incredibly the Secretary of Energy's solution to this is 
to insulate our houses, drive less, and change our light bulbs. 
Trust me, my constituents know how to do these common sense 
things and have done them for years.
    But more importantly, they would like to know why energy 
prices are expected to more than double this year. They would 
also like to know that they are not being gouged by unfair 
industry practices.
    While the Secretary of Energy did note that much of the 
expected increaseswere due to Hurricane Katrina and Rita, he 
also said that he did not know the extent of the damage caused 
by these two storms. How then does he know that the expected 
price increases in energy are justified? How do we know that 
our constituents are not being gouged?
    The Secretary of Energy does not have a full understanding 
of the condition of the gulf coast energy infrastructure and 
neither do we on this committee. I would note for the record 
that the oversight committee has not asked for nor received a 
single briefing on the state of the energy infrastructure in 
the gulf region since the Hurricane. We do not know what is 
damaged, how much is damaged, and what impacts such destruction 
should have on energy prices.
    As the investigative arm of the Energy and Commerce 
Committee, I find no compelling reason why we choose to keep 
our head on such an important issue. I also find no compelling 
reason why we do not choose to investigate why energy prices 
are set to climb through the roof and why we are not allowed to 
determine whether these price increases are justified.
    As the Energy and Commerce Committee, we owe this to the 
American public. At least, I owe it to my constituents, who are 
expecting a very cold winter with very high fuel bills.
    I yield back the balance of my time, and thank you, Mr. 
Chairman.
    Mr. Whitfield. Thank you, Mr. Stupak. At this time I 
recognize Mr. Burgess for his opening statement.
    Mr. Burgess. Thank you, Mr. Chairman. I think in the 
interests of time let me submit my opening statement for the 
record and we will hear from the witnesses.
    [The prepared statement of Hon. Michael C. Burgess 
follows:]
  Prepared Statement of Hon. Michael C. Burgess, a Representative in 
                    Congress from the State of Texas
    Thank you Mr. Chairman, and thank you for having this important 
hearing.
    The issue of nuclear waste storage is an extremely timely issue and 
will only become more important as we look to nuclear power as an 
emissions-free source of electricity.
    Congress has acknowledged that consolidating nuclear waste storage 
is advantageous because of lower costs and increased security. While it 
is my hope that we can soon move forward with plans for a permanent 
disposal facility, such as Yucca Mountain, we must have an interim plan 
in place until that facility can be constructed.
    Today we will review a report from the Government Accountability 
Office that was originally commissioned nearly two years ago. The 
report examines the DOE's management practices as they have worked to 
consolidate excess plutonium inventories. I was concerned to read that 
a lack of coordination by DOE management may cost the federalgovernment 
an additional $85 million per year in order to continue to store 
plutonium at the Hanford site.
    The security ramifications of leaving the plutonium inventories at 
Hanford are outside the purview of this report, but are troubling 
nonetheless. At this time in American history, our national security 
has become the most important issue facing our nation. It is critical 
that we do everything within our power to ensure that our nuclear 
weapons and nuclear materials are highly secured and protected.
    I am pleased to see that the Department of Energy has concurred 
with the recommendations in the report and hope that they will move to 
implement them with alacrity. We cannot allow our national security to 
be compromised because of inadequate safeguards that are poorly 
implemented.
    Again, Mr. Chairman, I thank you for this crucial hearing in which 
we can address some of these essential concerns regarding nuclear 
facilities and the security of our nation.

    Mr. Whitfield. Okay. Well, that concludes the opening 
statements. As Mr. Stupak said, we do have an energy bill on 
the floor, and we don't expect our first votes until around 
10:15, so although we may appear to be in a hurry this is such 
an important issue that we do want to take whatever time is 
necessary, and we look forward to your testimony.
    And, Mr. Aloise, we will begin with you, although you are 
at the reverse end. But you will be our first witness. So you 
will be recognized for 5 minutes.
    As you realize when we do have oversight and investigation 
hearings, we normally do swear the witnesses in. And I would 
ask you, do any of you have any difficulty with testifying 
under oath in morning?
    As you realize, the rules of the House and rules of this 
committee are that you are entitled to legal counsel, if you so 
choose. Do any of you prefer to have legal counsel with you 
this morning?
    In that case then if you would simply rise and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Whitfield. You are now under oath. And Mr. Aloise, you 
may now give a 5 minute opening statement. Thank you.

 TESTIMONY OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND THE 
ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; CHARLES E. 
ANDERSON, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF ENVIRONMENTAL 
 MANAGEMENT, U.S. DEPARTMENT OF ENERGY; AND A.J. EGGENBERGER, 
CHAIRMAN, DEFENSE NUCLEAR FACILITY SAFETY BOARD; ACCOMPANIED BY 
               JACK MANSFIELD AND BRUCE MATTHEWS

    Mr. Aloise. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I am pleased to be here today to 
discuss our work on DOE's efforts to consolidate surplus 
plutonium.
    DOE stores about 50 metric tons of plutonium that is no 
longer needed for nuclear weapons. Most of this surplus 
plutonium is pit form, and is stored at the Pantex plant in 
Texas. The remaining plutonium, primarily contaminated metals 
and oxides, is stored at several locations across the United 
States, including the Savannah River and Hanford sites, Los 
Alamos and Lawrence Livermore National Labs.
    It is important that this plutonium be consolidated for 
health, safety and security reasons. DOE has not yet decided 
where to consolidate this plutonium, but has created enough 
storage space at the Savannah River site in the event the 
plutonium is consolidated there. Eventually, this plutonium 
must be processed in a form appropriate for permanent disposal.
    My remarks, which are based on our July 2005 report, will 
focus on the extent to which DOE can consolidate plutonium at 
the Savannah River site and the site's capacity to monitor the 
safety of the plutonium storage containers.
    Regarding consolidation, DOE cannot consolidate all of its 
plutonium at the Savannah River site because it has not 
completed a plan to process the plutonium into a form for 
permanent disposal. This plan was required by the National 
Defense Authorization Act of 2002. However, even if DOE were 
able to ship the plutonium, other problems stand in the way of 
consolidation.
    Specifically, DOE approved Hanford's overall cleanup plan 
and Savannah River's plutonium storage plan, even though the 
plans are inconsistent with one another. Hanford's cleanup plan 
calls for shipping about 20 percent of the plutonium in the 
form of 12-foot long nuclear fuel rods. Savannah River's plan 
assumed that all of Hanford's plutonium would be shipped in 
DOE's standard 5-inch wide and 10-inch long storage containers.
    Subsequently DOE determined that Savannah River had the 
space to store the fuel rods, but they cannot be shipped 
because, among other things, there is currently no Department 
of Transportation approved shipping container.
    Wherever the fuel rods end up, they will have to be 
disassembled prior to processing them for permanent disposal, 
and neither Hanford nor Savannah River have the capability to 
disassemble them.
    The challenges DOE faces storing its plutonium, in our 
view, stem from the Department's failure to adequately plan for 
plutonium consolidation. Instead of developing an integrated 
plan, DOE relied on its individual sites to independently 
develop plans to achieve their own goals.
    As a result, DOE will not achieve the cost savings and 
security improvements that consolidation offers. In fact, 
continued storage of all of Hanford's plutonium will cost 
approximately $855 million more per year because of rising 
security costs.
    Regarding the safe monitoring of plutonium, the Savannah 
River facility where DOE is storing the plutonium is not 
equipped to conduct the needed monitoring of the storage 
containers. That is, it lacks adequate fire protection, 
ventilation and filtration.
    DOE planned to construct a monitoring capability in another 
building at the site which already had the ventilation systems 
needed to work with plutonium; however, this building would not 
have sufficient security to conduct all of the required 
monitoring and had other serious safety concerns as well.
    Because of these concerns, DOE plans to install monitoring 
equipment and the necessary safety systems in the building 
where the plutonium is now stored. In our July report, we made 
recommendations to ensure that DOE develops a comprehensive 
strategy for plutonium consolidation, storage and disposal, and 
that its facilities cleanup plans are consistent with this 
strategy.
    DOE agreed with our recommendations and said that it will 
develop a strategic plan for the consolidation of plutonium and 
other nuclear materials.
    Mr. Chairman, that concludes my remarks. I would be happy 
to respond to questions you or members of the subcommittee may 
have.
    Mr. Whitfield. Thank you very much for your testimony, and 
at this time, I recognize Dr. Charles Anderson.

                TESTIMONY OF CHARLES E. ANDERSON

    Mr. Anderson. Good morning. My name is Charles Anderson. I 
am the Department of Energy's Principal Deputy Assistant for 
the Office of Environmental Management. I have been involved 
with plutonium disposition for a number of years in this and 
previous positions. I am also a member of the Department's 
Nuclear Materials Disposition and Consolidation Coordination 
Committee. The Office of Environmental Management is 
responsible for the safe storage and security of the majority 
of DOE's surplus non-pit plutonium pending disposition of that 
material.
    The GAO's July 2005 report contains two recommendations for 
executive action with which the Department concurs. The first 
recommendation calls for a comprehensive strategy to be 
developed for the consolidation, storage and disposition of 
DOE's excess plutonium.
    The second recommendation suggests DOE's cleanup plans be 
reviewed to ensure they are consistent with this comprehensive 
strategy for consolidation, storage and disposition.
    While the Department believes that consolidation can result 
in significant benefits with respect to safety and cost 
savings, any future decisions to do so will be based on the 
outcome of ongoing evaluations and considerations that will 
provide the foundation for the development of the Nuclear 
Materials Disposition and Consolidation Coordination 
Committee's strategic plan.
    The Department remains committed to conduct a disposition 
of plutonium and any further consolidation of the material in a 
manner that is good for the environment, safe for the worker, 
respectful of the taxpayer, and consistent with all applicable 
statutory requirements. Until the Nuclear Materials Disposition 
and Consolidation Coordination Committee's s strategic plan is 
completed, the Department will not make a decision on plutonium 
consolidation.
    With respect to the first GAO recommendation that the 
Department develop a comprehensive strategy for consolidation, 
storage and disposition of the Department's excess plutonium, 
former Secretary Abraham established this committee. Secretary 
Bodman subsequently approved the charter for this committee. A 
key responsibility of this committee is to develop and ensure 
implementation of a strategic plan for disposition and 
consolidation of special nuclear material. This strategic plan 
will encompass the comprehensive strategy recommended by the 
GAO.
    The principal mission of this committee is to provide the 
Department with recommendations on cross-cutting nuclear 
materials disposition and consolidation planning with the 
objectives of providing the necessary security for DOE's 
nuclear materials, identifying paths for disposition, as 
appropriate, and reducing out-year security and program costs. 
The scope of the material within the committee's charter 
includes all of the surplus plutonium owned by the office of 
environmental management, and also surplus non-pit plutonium 
owned by the National Nuclear Security Administration.
    Deputy Secretary Sell recently approved the mission need 
for a plutonium disposition project at the Savannah River site 
for plutonium that does not have an identified disposition 
path; that is, plutonium not suitable for disposition using the 
currently designed mixed oxide, or MOX, fuel fabrication 
facility planned to be constructed at the Savannah River site. 
The Department's fiscal year 2006 Congressional budget request 
includes $10 million for conceptual design of the Savannah 
River site plutonium disposition project. As part of this 
conceptual design, the Department will be evaluating a number 
of alternatives to meet the disposition objective.
    In response to the GAO's second recommendation, I can 
assure this Congressional committee that following the 
completion of the NMDCCC's strategic plan, the Office of 
Environmental Management and its staff will revise and review 
the appropriate cleanup plans to make certain they are 
consistent with this strategic plan and its associated 
implementation schedule.
    I would like to say a few words about the findings 
contained in the GAO's report which are based on the premise 
that plutonium will be consolidated at the Savannah River site 
and have in no way been approved or endorsed by the Department.
    First, prior to shipping any additional weapons usable 
plutonium to the Savannah River site, the Department will 
comply with all applicable statutory requirements, including 
those established by the National Defense Authorization Act for 
Fiscal Year 2002 and by the National Defense Authorization Act 
for Fiscal Year 2003.
    With respect to being able to receive all of Hanford's 
plutonium, the Savannah River site's K-area currently has 
adequate storage capacity for all of Hanford's plutonium, 
including the unirradiated fuel rods now stored at Hanford. 
While additional activities need to be completed, including 
development of a revised safety documentation, shipping package 
certification, and appropriate National Environmental Policy 
Act, or NEPA, analysis, the Hanford fuel rods can be shipped 
and stored intact at the Savannah River site.
    While recent changes to DOE's security requirements make it 
highly desirable to have as few nuclear materials storage 
locations as possible, the elimination of one facility planned 
for use of plutonium storage at the Savannah River site, the 
Metallurgical Building, building 235-F, does not complicate our 
potential storage plans since K-area alone now has adequate 
storage capacity. Furthermore, the Department agrees with the 
Defense Nuclear Facilities Safety Board and that there are 
potential safety issues associated with continued use of the 
Metallurgical Building.
    Finally, with respect to the GAO finding that DOE lacks 
capability to fully monitor the condition of the plutonium 
necessary to ensure continued safe storage, the existing 
plutonium surveillance and monitoring capabilities in the 
Metallurgical Building are all that are required until 2007 to 
ensure continued safe storage. Beginning in 2007, the Savannah 
River site will have the capability in K-area to perform all 
required surveillance and monitoring examinations to ensure 
safe storage of plutonium at the site.
    In closing, it is very important to keep in mind that while 
the Department is evaluating the options for the safe and 
secure storage of weapons usable plutonium, the Department 
currently has no plans nor have we made any decisions to 
further consolidate such plutonium to the Savannah River site 
or elsewhere. Moreover, the Department will not move any 
plutonium unless and until all applicable requirements are met.
    Thank you for allowing me the opportunity to testify before 
your subcommittee, and this completes my formal statement.
    [The prepared statement of Charles E. Anderson follows:]
Prepared Statement of Charles E. Anderson, Principal Deputy Assisstant 
      Secertary of Environmental Management, Department of Energy
    Good morning. My name is Charlie Anderson and I am the Department 
of Energy's Principal Deputy Assistant Secretary for the Office of 
Environmental Management. I have been involved with Plutonium 
disposition for a number of years, in this and previous positions. I am 
also a member of the Department's Nuclear Materials Disposition and 
Consolidation Coordination Committee (NMDCCC). The Office of 
Environmental Management is responsible for the safe storage and 
security of the majority of DOE's surplus non-pit plutonium pending 
disposition of that material.
    The GAO's July 2005 report, SECURING U.S. NUCLEAR MATERIALS: DOE 
Needs to Take Action to Safely Consolidate Plutonium, contains two 
recommendations for executive action, with which the Department 
concurs. The first recommendation calls for a comprehensive strategy to 
be developed for the consolidation, storage, and disposition of DOE's 
excess plutonium. The second recommendation suggests DOE's cleanup 
plans be reviewed to ensure they are consistent with the comprehensive 
strategy for consolidation, storage and disposition.
    While the Department believes that consolidation can result in 
significant benefits with respect to safety and cost savings, any 
future decisions to do so will be based on the outcome of ongoing 
evaluations and considerations that will provide the foundation for 
development of the Nuclear Materials Disposition and Consolidation 
Coordination Committee's Strategic Plan. The Department remains 
committed to conduct the disposition of plutonium and any further 
consolidation of the material in a manner that is good for the 
environment, safe for the worker, respectful of the taxpayer, and 
consistent with all applicable statutory requirements. Until the 
Nuclear Materials Disposition and Consolidation Coordination 
Committee's Strategic Plan is completed the Department will not make a 
decision on Plutonium consolidation.
    With respect to the first GAO recommendation that the Department 
develop a comprehensive strategy for the consolidation, storage, and 
disposition of the Department's excess plutonium, former Secretary 
Abraham established the Nuclear Materials Disposition and Consolidation 
Coordination Committee. Secretary Bodman subsequently approved the 
charter for this Committee. A key responsibility of this Committee is 
to develop and ensure implementation of a Strategic Plan for 
disposition and consolidation of special nuclear material. This 
Strategic Plan will encompass the comprehensive strategy recommended by 
the GAO.
    The principal mission of this Committee is to provide the 
Department with recommendations on cross-cutting nuclear materials 
disposition and consolidation planning with the objectives of providing 
the necessary security for DOE's nuclear materials, identifying paths 
for disposition, as appropriate, and reducing out-year security and 
program costs. The scope of material within the Committee's charter 
includes all of the surplus plutonium owned by the Office of 
Environmental Management and all surplus non-pit plutonium owned by the 
National Nuclear Security Administration.
    Deputy Secretary Sell recently approved the Mission Need for a 
plutonium disposition project at the Savannah River Site for plutonium 
that does not have an identified disposition path; that is, plutonium 
not suitable for disposition using the currently-designed Mixed Oxide, 
or MOX, Fuel Fabrication Facility planned to be constructed at the 
Savannah River Site. The Department's Fiscal Year 2006 congressional 
budget request includes $10 million for conceptual design of the 
Savannah River Site plutonium disposition project. As part of this 
conceptual design, the Department will be evaluating a number of 
alternatives to meet the disposition objective.
    In response to the GAO's second recommendation, I can assure this 
Congressional Committee that following the completion of the NMDCCC's 
Strategic Plan, the Office of Environmental Management and its staff 
will revise and review the appropriate clean up plans to make certain 
they are consistent with the Strategic Plan and its associated 
implementation schedule.
    I would like to say a few words about the findings contained in the 
GAO's report, which are based on the premise that Plutonium will be 
consolidated at the Savannah River Site and have in no way been 
approved or endorsed by the Department. First, prior to shipping any 
additional weapons-usable plutonium to the Savannah River Site, the 
Department will comply with all applicable statutory requirements, 
including those established by the National Defense Authorization Act 
for Fiscal Year 2002 and by the National Defense Authorization Act for 
Fiscal Year 2003. With respect to being able to receive all of 
Hanford's plutonium, the Savannah River Site's K-Area currently has 
adequate storage capacity for all of Hanford's plutonium, including the 
unirradiated fuel rods now stored at Hanford. While additional 
activities need to be completed, including development of revised 
safety documentation, shipping package certification and appropriate 
National Environmental Policy Act, or NEPA, analyses, the Hanford fuel 
rods can be shipped to and stored intact at the Savannah River Site.
    While recent changes to DOE's security requirements make it highly 
desirable to have as few nuclear material storage locations as 
possible, the elimination of one facility planned for use of plutonium 
storage at the Savannah River Site, the Metallurgical Building 
(Building 235-F), does not complicate our potential storage plans, 
since K-Area alone now has adequate storage capacity. Furthermore, the 
Department agrees with the Defense Nuclear Facilities Safety Board in 
that there are potential safety issues associated with continued use of 
the Metallurgical Building. Finally, with respect to the GAO finding 
that ``DOE lacks the capability to fully monitor the condition of the 
plutonium necessary to ensure continued safe storage,'' the existing 
plutonium surveillance and monitoring capabilities in the Metallurgical 
Building are all that are required until 2007 to ensure continued safe 
storage. Beginning in 2007, the Savannah River Site will have the 
capability in K-Area to perform all required surveillance and 
monitoring examinations to ensure safe storage of plutonium at the 
site.
    In closing, it is very important to keep in mind that, while the 
Department is evaluating options for the safe and secure storage of 
weapons-useable plutonium, the Department currently has no plans, nor 
have we made any decisions, to further consolidate such plutonium to 
the Savannah River Site or elsewhere. Moreover, the Department will not 
move any plutonium unless and until all applicable requirements are 
met.
    Thank you for allowing me the opportunity to testify before your 
Subcommittee, and this completes my formal statement. At this time I 
would be pleased to answer any questions you may have.

    Mr. Whitfield. Thank you, Mr. Anderson.
    Dr. Eggenberger, the Chairman of the Defense Nuclear 
Facility Safety Board, you are recognized for 5 minutes.

                  STATEMENT OF A.J. EGGENBERGER

    Mr. Eggenberger. Thank you, Mr. Chairman. It is indeed a 
pleasure to present this testimony on the GAO report. With me, 
I have two of my other board members which I would like to 
recognize. I have Dr. Jack Mansfield, and Dr. Bruce Matthews 
here with me also, and this testimony represents the testimony 
of the Board. And I would request that my testimony be entered 
into the record, and I will give a summary, a very short 
summary.
    I would like to first say that the Board does agree 
completely with GAO's assessment, and I would like to bring a 
little different perspective to the issue. First, in that 
perspective one needs to know and remember that the Board only 
gives advice to the Secretary. We are nonregulatory, and we do 
that through basically two things. One are called 
recommendations, and the other are called letters.
    We put a recommendation to the Secretary of Energy in 1994 
which was called Improved Schedule for Remediation in the 
Defense Nuclear Facilities Complex. Now, the Secretary accepted 
that recommendation and gave us an implementation plan to 
implement the recommendation. Included in the implementation 
plan was a commitment to construct a facility called the 
Actinide Storage and Packaging Facility.
    What that would do was that would allow DOE to stabilize 
and store in robust containers all legacy materials in the DOE 
complex. As has been mentioned by the other witnesses and as 
time went on, things changed within DOE and the plans for 
disposition have changed.
    Another change that occurred was the Actinide Storage and 
Packaging Facility was also canceled. The thing that was 
attractive to us, and we believed attractive to the government, 
was this facility allowed DOE to mass together the legacy 
plutonium in a safe condition, and in robust containers that 
would last for a minimum of 50 years.
    This would then allow the government to not be required to 
move quickly without proper background and definition, such 
that the disposition path could be taken in a manner that was 
technically very sound. So what we have now, of course, is we 
are unable to consolidate the material from the various sites 
to Savannah River, which I believe that in that time period we 
could have, and we probably moved too fast in that time period 
in determining exactly what the disposition paths were believed 
to be.
    So as far as DOE being able to come up with a new plan for 
disposition, I would encourage them to be very careful, to 
understand the risks, not only technically but politically, and 
that they look at all possible things that could be done.
    People talk about disposition. Maybe it's time, I'm not 
necessarily saying we should do this, but at least it's time to 
think about maybe not moving forward with the disposition, and 
putting the material in a safe and stable condition such that 
proper decisions could be made. I think we are back at the 
beginning again, as we were in 1994. This includes, of course, 
things as chemical processing, and all of other attendant type 
processes that would enable us to do that.
    One last thing, the Board has met with the new DOE 
committee, the NMDCCC, that will be putting together the 
recommendations to the Secretary and the Department for a path 
forward, and our belief is that they are in the beginning 
stages of their deliberations.
    Thank you, sir.
    [The prepared statement of A.J. Eggenberger follows:]
 Prepared Statement of A.J. Eggenberger, Chairman, The Defense Nuclear 
                        Facilities Safety Board
                              introduction
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to present testimony on the Defense Nuclear Facilities 
Safety Board's (Board) review of the Department of Energy's (DOE) 
efforts to consolidate surplus plutonium inventories.
    Today's hearing addresses the Government Accountability Office 
(GAO) audit report, ``Securing U.S. Nuclear Materials: DOE Needs to 
Take Action To Safely Consolidate Plutonium.'' As indicated in the 
report, the Board provided substantial technical input to the GAO 
auditors. GAO found that DOE needed to develop a comprehensive strategy 
to consolidate, store, and eventually dispose of its plutonium and 
needed to ensure that its cleanup plans are consistent with its 
plutonium consolidation plans. The Board agrees with GAO's findings and 
conclusions that are relevant to the Board's nuclear health and safety 
jurisdiction.
    I would like to summarize the statutory nuclear safety oversight 
mission of the Board, and then briefly review the Board's recent 
activities that are relevant to consolidated plutonium storage and 
disposition. I will also review the Board's Congressionally mandated 
study of plutonium storage at the Department of Energy's Savannah River 
Site (SRS) and our suggestions for the safe storage and disposition of 
excess plutonium.
                the board's statutory oversight mission
    Congress created the Board as an independent technical agency 
within the Executive Branch, external to DOE, to identify the nature 
and consequences of potential nuclear threats to public health and 
safety at the Department of Energy's defense nuclear facilities, to 
elevate such issues to the highest levels of authority, and to inform 
the public. Broadly speaking, the Board provides nuclear safety 
oversight of DOE's defense nuclear facilities from design through 
construction, operation (including storage), and decommissioning. The 
Board is not a regulatory, but an advisory agency with approximately 60 
technical staff.
    The Board's approach to conducting its nuclear safety oversight 
mission is to identify to DOE conditions or deficiencies which could 
adversely affect the public, including workers', health and safety. The 
Board provides advice and recommendations to DOE primarily by way of 
letters, reporting requirements, and formal recommendations to the 
Secretary of Energy. DOE can accept or reject the Board's advice and 
recommendations. Although DOE's contractors implement most of the 
nuclear health and safety improvements identified by the Board, the 
Board works primarily through DOE--both headquarters and site office 
staff. To date, all Board recommendations have been accepted by the 
Secretaries of Energy.
    The Board conducts its nuclear safety oversight of DOENational 
Nuclear Security Administration activities at the Los Alamos, Lawrence 
Livermore, and Sandia National Laboratories; the Pantex Plant, the Y-12 
National Security Complex, the Savannah River Site, and the Nevada Test 
Site. The Board also conducts nuclear safety oversight of DOE's 
Environmental Management activities at these sites as well as the 
Hanford Site, Idaho National Laboratory and Idaho Cleanup Project, Oak 
Ridge National Laboratory, Waste Isolation Pilot Plant, and the Fernald 
and Mound Sites in Ohio. Operations at DOE's defense nuclear facilities 
include assembly, disassembly, and dismantlement of nuclear weapons; 
and maintenance and surveillance of the aging nuclear weapons 
stockpile. Operations at defense nuclear facilities also include the 
stabilization and storage of nuclear materials, the deactivation and 
decommissioning of facilities, and the processing and storage of 
radioactive waste.
    The Board's jurisdiction covers only nuclear safety oversight of 
DOE's defense nuclear facilities and activities; including the safe 
storage of plutonium in defense nuclear facilities. As such, some of 
the issues that are discussed in this hearing, like those directly 
related to safeguards and security, are beyond the Board's 
jurisdiction. There may, however, be causal elements associated with 
these issues that affect nuclear safety and are of interest to the 
Board. Moreover, there are often important relationships between 
nuclear safety and security, and between nuclear and industrial safety. 
Consolidation of nuclear materials is a prime example. It can have both 
nuclear safety and security components; however, the Board's 
jurisdiction is limited to nuclear health and safety issues.
                               background
    In the mid1990s, DOE developed a plan for storage of its excess 
plutonium materials. The inventories of material at the Rocky Flats 
Environmental Technology Site (Rocky Flats) and SRS were to be stored 
in a state-of-the-art facility--the Actinide Packaging and Storage 
Facility (APSF) at SRS. This facility was designed to allow for 
expansion to accommodate additional nuclear materials from other DOE 
sites. Advanced monitoring and handling features of this facility would 
have minimized manual inspection and movement of containers, thereby 
reducing worker radiation doses and criticality risks.
    Additionally, in our Recommendations 94-1, Improved Schedule for 
Remediation in the Defense Nuclear Facilities Complex, and 2000-1, 
Prioritization for Stabilizing Nuclear Materials, the Board encouraged 
DOE to stabilize and package its excess plutonium into robust storage 
containers. This action provided DOE time to decide the best course of 
action for future storage and ultimate disposition of plutonium.
    The K-Area reactor facility was built at SRS in the 1950s. The 
reactor was shut down in the early 1990's. In 1998, DOE decided to 
modify the facility to accommodate early deinventory of Rocky Flats. 
This K-Area facility, also known as KAMS (K-Area Material Storage), was 
intended to be used for a limited time, less than 10 years, until APSF 
was to become operational.
    In 2000, DOE completed a study of plutonium stabilization and 
storage options. This study assumed that a proposed plutonium 
immobilization facility would provide a nearterm disposition pathway 
for DOE's excess plutonium metal and oxides not slated for use in 
mixedoxide (MOX) fuel. Given the assumed short storage period, the DOE 
study team concluded it would be more costeffective and timely to 
modify existing facilities to provide the capability for stabilization 
and storage than to construct a new facility. Accordingly, the 
recommendation of the study was to cancel the APSF project and modify 
Building 235-F (235-F)--originally built in the 1950s--to install a 
stabilization and packaging capability.
    Even though APSF had been designed and excavation begun, DOE 
canceled construction of the facility in 2001. DOE's decision was based 
primarily on budget constraints and expectations that a disposition 
path for the plutonium (MOX and immobilization facilities) would be 
available in the relatively near future. The immobilization facility 
was delayed shortly after this decision, and then canceled in 2002. In 
conjunction with this cancellation, DOE decided that storage of the 
Rocky Flats plutonium materials in KAMS could extend beyond the 10 
years previously estimated.
    Since DOE had planned to utilize APSF to provide a means to 
stabilize, package, store, and conduct surveillance and monitoring of 
SRS's inventory of plutonium, the decision to cancel APSF left DOE 
without clear provisions for the safe stabilization and storage of 
excess plutonium at SRS. To achieve timely stabilization for plutonium 
at the SRS site, the Board suggested that these materials could be 
stabilized and packaged efficiently with some minor modifications to 
the FB-Line. DOE agreed and has now completed stabilization and 
packaging of the SRS excess plutonium. DOE concluded that storage of 
the SRS materials could be provided by modifying storage vaults in 235-
F and increasing storage capacity in KAMS. In 2002, Congress directed 
the Board to study the adequacy of plutonium storage at SRS.
   congressionally mandated srs plutonium storage study by the board
    In section 3183 of the FY 2003 National Defense Authorization Act, 
Congress directed the Defense Nuclear Facilities Safety Board to 
conduct a study of the ``adequacy of the K-Area Materials Storage 
facility (KAMS), and related support facilities such as Building 235-F, 
at the Savannah River Site, Aiken, South Carolina, for the storage of 
defense plutonium and defense plutonium materials . . .'' The statute 
required the Board to:

(1) address--
    (A) the suitability of KAMS and related support facilities for 
            monitoring and observing any defense plutonium or defense 
            plutonium materials stored in KAMS;
    (B) the adequacy of the provisions made by the Department for 
            remote monitoring of such defense plutonium and defense 
            plutonium materials by way of sensors and for handling of 
            retrieval of such defense plutonium and defense plutonium 
            materials; and
    (C) the adequacy of KAMS should such defense plutonium and defense 
            plutonium materials continue to be stored at KAMS after 
            2019; and
(2) include such proposals as the Defense Nuclear Facilities Safety 
        Board considers appropriate to enhance the nuclear safety, 
        reliability, and functionality of KAMS.
    Congress also required both the Secretary of Energy and the Board 
to submit annual reports on the actions taken by DOE in response to the 
Board's proposals. The first annual report was required to be submitted 
six months after the Board's study was submitted. Subsequently, the 
Board has submitted a 2004 and 2005 annual report to Congress pursuant 
to this statute.
                     board plutonium study findings
    In our study, Plutonium Storage at the Department of Energy's 
Savannah River Site, dated December 1, 2003, the Board made proposals 
concerning DOE's plutonium disposition program, the suitability of 50-
year-old facilities planned for storing plutonium at the SRS, and the 
remote monitoring and retrieval of plutonium. The Board proposed safety 
upgrades to ensure the nuclear safety, reliability, and functionality 
of the existing facilities (KAMS and 235-F) proposed for plutonium 
storage. The Board also proposed that DOE expedite the development of a 
complete, wellconsidered plan for the final disposition of all excess 
plutonium to minimize unnecessary extended storage of plutonium at SRS. 
Even with a sound disposition plan, excess plutonium is expected to be 
stored for several decades at SRS; therefore, the Board additionally 
proposed that DOE conduct a new study of available options for the 
storage of plutonium at SRS.
    In April 2005, DOE decided to consolidate the excess plutonium 
currently at SRS into the KAMS facility and not utilize 235-F for 
extended storage. This decision obviates the need for nuclear safety 
upgrades to 235-F related to extended storage.
    The Board considers the KAMS facility to be a robust structure that 
can be made suitable for storage by establishing an appropriate fire 
protection system and eliminating unnecessary combustibles. DOE has 
agreed to remove unnecessary combustibles and has recently directed 
that needed upgrades to the facility's fire protection system be made. 
The combination of these actions and the robust packaging containers 
required for storage in KAMS, provides a suitable facility for storage 
of plutonium. To meet existing DOE requirements for extended storage, 
DOE will need to add the capability to monitor, stabilize and repackage 
plutonium in this facility. DOE plans for this activity are in 
progress.
         current status of plutonium storage and consolidation
    In the Board's 2004 and 2005 annual follow-up reports to Congress 
on the plutonium storage study, the Board stated that DOE had not 
established a consistent, well-considered plan for storage and 
disposition of excess plutonium. Rather, DOE's storage plans continue 
to change. DOE has been unsuccessful in consolidating excess plutonium 
at SRS. DOE has directed that the Hanford Site plan to store its excess 
plutonium on site through 2035. DOE's laboratories must also continue 
to store excess plutonium. Contributing to consolidation difficulties 
are inconsistencies between Hanford and SRS as to how the plutonium 
must be packaged before shipping to SRS (i.e., unirradiated Fast Flux 
Test Facility fuel at Hanford Site). Specific actions to accommodate 
this new direction for extended storage of excess plutonium at various 
sites and to address packaging have not been formalized by DOE and have 
not been evaluated by the Board. However, this strategy raises 
potential questions about the nuclear safety of options being 
considered by DOE to store plutonium in areas never intended for such 
storage.
    For extended storage, consolidation of excess plutonium into a 
single, robust facility specifically designed for storage is logical 
from a nuclear safety perspective. Accordingly, the Board has advised 
DOE to consider broader alternatives for safe and secure storage of its 
excess plutonium. If unable to consolidate plutonium at existing SRS 
facilities, DOE should consider other locations for consolidation of 
plutonium. Options include consolidation in a new facility, 
specifically designed for such storage, or consolidation in an existing 
facility that has been determined suitable for extended storage.
    DOE's current disposition strategy for excess plutonium consists 
primarily of processing into mixed-oxide fuel or vitrifying into 
lanthanide borosilicate glass for disposal. A small quantity of excess 
plutonium is to be disposed of as waste either at the Waste Isolation 
Pilot Plant or through the SRS high level waste system. As envisioned, 
the vitrification process would be established in areas of the K-
Reactor facility at SRS. This vitrification process is preliminary and 
still years away from being realized.
    Given DOE's decision to ultimately dispose of its excess plutonium, 
the Board advised DOE to consider additional alternatives for its 
disposition strategy, including the potential for incorporating more of 
the material into MOX fuel. In lieu of pursuing the vitrification 
project only, DOE has recently approved the mission need for a 
plutonium disposition project. This project includes developing 
disposition alternatives that take into account other ongoing or 
planned plutonium processing activities. This appears to be an 
appropriate reconsideration of the path forward on plutonium 
disposition.
    The two Board proposals from its recent 2005 follow-up report to 
Congress, namely that DOE consider broader alternatives for storage and 
that DOE consider additional alternatives to disposition, are 
consistent with the GAO report findings.
    In early 2005, DOE formed a new broadly chartered group--the 
Nuclear Materials Disposition and Consolidation Coordination 
Committee--comprising senior DOE management personnel, which may 
provide the strategic planning needed. This group is to provide a forum 
to perform crosscutting nuclear material disposition and consolidation 
planning for DOE. This is a positive development but the committee does 
not have a clearly identified set of goals, objectives or schedule nor 
has this committee, to date, provided any real strategic planning that 
is obvious to the Board. DOE continues to develop new plans and 
alternative plans since 1995 but has not implemented any of them to 
date.

    Mr. Whitfield. Dr. Eggenberger, thank you. And since your 
first discussions of this issue in 1994 with the Secretary of 
Energy at that time, how much progress do you feel has been 
made by the DOE?
    Mr. Eggenberger. I would have to say, sir, that a 
tremendous amount of progress has been made for the following 
reason. The first reason is things were in disarray at that 
point in time. The material has been amassed. We know where the 
material is. Much of it has been stabilized, and the container 
to put the material in has been designed, has been fabricated 
and is in use at the Savannah River site and other sites for 
storage at this point in time. It is robust.
    Again, 1994 is 10 years or so ago, and DOE has a program 
for monitoring the can, and doing surveillance on the can to 
see if it will take its 50-year life that we--that the 
Department has designed it for.
    So in that sense we believe that they have been making a 
lot of progress. The idea of amassing the material all in one 
place and disposing of it, if you wish, or holding onto it 
until you are ready to come up with a plan that provides all of 
the necessary elements for disposal, we haven't done--they have 
not done as good on that, sir.
    Mr. Whitfield. Mr. Aloise, from your information and 
studies that you have conducted on this whole issue, would you 
go over again with us from your perspective what the major 
problems are that still face DOE in making a final decision 
about this?
    Mr. Aloise. Well, in our view, one of the major problems is 
the lack of this complex-wide coordinated plan.
    Mr. Whitfield. The lack of what?
    Mr. Aloise. A complex-wide coordinated plan, which looks at 
all of the individual sites and the problems and issues at each 
site, and in one plan kind of formulizes a decision of what we 
are going to do and what is the path forward.
    And I think without that, we are not going to--even though 
I agreed they have made a lot of progress to date, without that 
final plan, little progress from here probably will be made.
    Mr. Whitfield. So from your perspective and from what you 
know, it does not appear that they are in a position to 
conclude this plan in the immediate future?
    Mr. Aloise. Not in the immediate future. Not that we see, 
no.
    Mr. Whitfield. What do you mean by immediate?
    Mr. Aloise. Well, I think the committee is just starting 
their work on this looking at that, and we really do not have a 
schedule or timeframe or have any idea when this plan is going 
to happen.
    Mr. Whitfield. Now, Mr. Anderson, you mentioned in the 
Defense Authorization Acts of 2002 and 2003, I believe, and 
that they required certain things from DOE before--were those 
requirements applicable only to the Savannah River site or to 
any site, the prohibitions or requirements in those 
authorizations acts of 2002, 2003?
    Mr. Anderson. They are applicable in the context of the 
Savannah River site, in the context of receiving plutonium or 
maintaining storage of weapons usable plutonium in the State of 
South Carolina.
    Mr. Whitfield. Now, what is specifically required under 
those acts?
    Mr. Anderson. It required that certain performance 
objectives be met for the mixed oxide fuel fabrication 
facility. And if not, then there is a planning for--suspension 
of any further shipments of plutonium into the State and 
planning for the potential removal of plutonium from the State 
of South Carolina.
    Mr. Whitfield. Now, and----
    Mr. Anderson. It also requires a corrective action plan if 
those performance objectives for the mixed oxide fuel 
fabrication facility are determined they can't be met, and that 
is consistent with the letter by the Secretary dated August 
15th. We are initiating all three avenues of that, the 
corrective action plan for mixed oxide fuel fabrication 
facility, and also an evaluation of plans for the removal of 
any plutonium if those performance objectives can't be met, and 
suspension of the plutonium shipments into the State.
    Mr. Whitfield. Now, you made it quite clear that DOE has 
made no decision about a location for consolidation of any of 
this material. That's correct?
    Mr. Anderson. Yes, sir.
    Mr. Whitfield. So this Defense Authorization Act applies 
only to the Savannah River site. So if you are considering 
other sites, it would not be applicable to any of those sites. 
Is that correct?
    Mr. Anderson. That's correct.
    Mr. Whitfield. Okay. And the Nuclear Materials Disposition 
and Consolidation Coordination Committee, how many people are 
on that committee?
    Mr. Anderson. There is about 8, 8 to 10, and of course 
supported as we deem necessary with additional subject matter 
experts.
    Mr. Whitfield. Who is the Chairman of that committee?
    Mr. Anderson. It was the Senior Policy Adviser for National 
Security to the Secretary, but she has taken a different 
position. So right now it is being headed up by the Under 
Secretary for ESE and Ambassador Brooks.
    Mr. Whitfield. Now, who was the Chairman? I understand she 
resigned recently?
    Mr. Anderson. Yes, sir. That is correct. Senior Policy 
Adviser to the Secretary was the Chairman. The steering 
committee, the senior executive steering committee was made up 
of her and Ambassador Brooks and Under Secretary Garman.
    So at this point in time, as far as chairing the committee, 
it is going to be co-chaired with Under Secretary Garman and 
Ambassador Brooks.
    Mr. Whitfield. So you have co-chairs now?
    Mr. Anderson. Correct.
    Mr. Whitfield. How long has this been in effect?
    Mr. Anderson. About a week.
    Mr. Whitfield. One week. How often does the committee meet?
    Mr. Anderson. I would give it on the order of about once a 
month or every 6 weeks. But it is typically as necessary to 
either gather or analyze data, and a large portion of the 
deliberations so far have been making sure we had all of the 
data identified and, as Dr. Eggenberger indicated here, to make 
sure that we identified the risk and the potential options.
    Previous efforts along these lines have resulted in 
projects that we ultimately then later decided not to do, 
because we believed that all of the risk and any options have 
not been completely evaluated, and the Secretary has made it 
very, very clear that he wants us to do a complete evaluation 
so that we know what the risks are so that we can make 
commitments that we will fully execute.
    Mr. Whitfield. Now, you serve on the committee?
    Mr. Anderson. Yes, sir.
    Mr. Whitfield. You represent what, the Office of 
Environmental Management?
    Mr. Anderson. I represent the Office of Environmental 
Management. I have previously also worked with the NNSA. So I 
bring some relationship with this from both areas.
    Mr. Whitfield. Now the charter requires that there be what, 
weekly telephone conference calls, is that correct, or monthly 
teleconference calls?
    Mr. Anderson. I don't recall that in the charter.
    Mr. Whitfield. From your perspective, you have been a 
member of this subcommittee since its formation?
    Mr. Anderson. Since soon after its formation, yes, sir.
    Mr. Whitfield. So sort of in layman's terms if you were 
speaking to the Rotary Club down in some little city down in 
Kentucky and you were explaining to them what you were doing, 
what would you say to them as far as your progress and when you 
expect to be able to reach a final decision?
    Mr. Anderson. As far as the progress we have made, we have 
identified all of the materials. We think we have identified 
all of the options for consolidation, and I will say many of 
the barriers, the roadblocks to evaluating those, the risks 
that we would have.
    We are trying to beat the bushes, if you will, to make sure 
that we have identified all of those risks. We do not want to 
repeat some of our problems in the past. One of the aspects of 
this is while we have identified--obviously we know where our 
material is and we have identified that material, is making 
sure we fully understand the condition of the material.
    A large portion of that material has been stabilized into 
these robust containers. We refer to them as 30-13 containers, 
but there is material such as the fuel at the Hanford site 
which has not yet been stabilized in that material, in that 
form. So we have got to make sure that we understand completely 
what those characterizations are and then what the options are 
for consolidating the material, whether we would put it in 
those robust containers or store it in some other form.
    Mr. Whitfield. And if you were looking at a date in the 
future that you would hope to be able to reach some conclusion 
about this, when would that be?
    Mr. Anderson. I think it is going to still be some time 
because of the cost numbers that--we also have to make sure. I 
mean I--with some of our cost estimates in the past on the 
project, the Secretary has been very clear to us that he wants 
to make sure that we have very firm estimates for our options. 
So when we are talking about evaluating our options and we 
review it with him, that we have a good basis for that. 
Obviously some of the options have very detailed estimates for 
them, and some of them don't. So we are having to go back and 
look and make sure that we understand what the basis is for 
those numbers.
    A lot of the cost numbers we look at are based on the 
Design Basis Threat, which obviously was upgraded a little over 
a year ago. And that is--that has thrown a new wrinkle as far 
as, you know, what our cost numbers are.
    Mr. Whitfield. Mr. Aloise I think referred to some $85 
million figure, or was that Dr. Eggenberger? What was that $85 
million figure?
    Mr. Aloise. The $85 million is the additional storage cost 
for the material at Hanford because they are not able to 
consolidate it, per year.
    Mr. Whitfield. That is per year. And the costs of 
consolidating, we really do not have any idea what that figure 
might be. Is that correct, Mr. Anderson?
    Mr. Anderson. The actual cost of consolidating we don't yet 
know, because we have to analyze whether we already meet the 
Design Basis Threat, whether that cost is clear or whether we 
have to do additional work in Design Basis Threat to do that. 
For instance, in many of the sites we would have to implement 
Design Basis Threat requirements that we weren't planning to 
before.
    Mr. Whitfield. Thank you. At this time I recognize Mrs. 
Blackburn for 10 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. Thank you all for 
being here with us this morning. And Mr. Anderson, I think I 
would like to stay with you. I find it interesting that you are 
so uncertain about the amount of time it's going to take and 
the cost you will bear and the risks that are before you when 
you talk about doing a complete evaluation.
    And speaking to the chairman's point, I think what we want 
to hear from you all is an orderly process, how you plan to 
proceed, and what your timeline is going to be, your best 
estimate.
    And if we have that type information, I think that would be 
helpful. If as you work through, if you all could provide that 
to us in writing so that we will have it for follow-up, if you 
don't mind, sir.
    Okay, let me ask you something else. Speaking of the risks, 
I know that other foreign nations, primarily France and Germany 
and one other, recycle their plutonium. And in, I think it was 
2002, the administration, you all had planned on a recycle 
project. Am I correct on that?
    Mr. Anderson. We are planning on a disposition project, the 
mixed oxide fuel fabrication facility, and an ultimate 
irradiation of that material in commercial reactors.
    Mrs. Blackburn. Okay. And why have you not moved forward 
with that recycling project?
    Mr. Anderson. We have continued to move forward. There was 
some design and licensing issues that they have been working 
through on that project.
    Mrs. Blackburn. Okay. And could you please tell me what 
countries you are looking at for lessons learned as you look at 
moving forward on that project?
    Mr. Anderson. I would like to get back with you. I know it 
includes the ones that you have mentioned there, but to provide 
you a complete list, we would like to get back with you on 
that.
    [The following was received for the record:]

    While the Department does not currently ``recycle'' 
plutonium, we are moving forward with the MOX program. This 
program has some of the aspects found in similar programs in 
France, Germany, Belgium, and Russia.
    The U.S. MOX facility that will be built at the Savannah 
River Site is based on MOX fuel fabrication technology that is 
being used at Cogema facilities in France. As a result, we are 
able to take maximum advantage of Cogema's operating experience 
for the U.S. facility. MOX fuel fabrication facilities have 
operated successfully in Europe for over four decades, and MOX 
fuel is being used successfully in nuclear power facilities 
around the world. This program will put surplus weapons-useable 
plutonium into mixed plutonium-uranium oxide fuel which will be 
irradiated in certain specified commercial power reactors. The 
MOX spent fuel will be as resistant to nuclear proliferation as 
is commercial spent fuel and cannot readily be used in nuclear 
weapons.

    Mrs. Blackburn. Okay. And then also another thing that I 
would be interested in knowing would be how much you think it 
would save us, both as a cost-benefit analysis, as an 
environmental analysis, what you think the savings on each of 
those fronts would be. And, if you have--if you have looked at 
that, and if you have done that type work. Is that work in the 
process?
    Mr. Anderson. That is the work that is in the process. As I 
mentioned earlier, there is some uncertainty around some of 
these numbers and the different options because of the level of 
understanding about the options that we have there.
    We understand it would be a significant amount of savings 
in consolidating our material. But that is one of the reasons 
we want to pursue that. But we haven't really finalized a 
number that we could commit to at this point.
    Mrs. Blackburn. Okay. And then you mentioned a new 
facility, and building a new facility. And if Congress were to 
give the money and the authorization for a new facility, then 
how long would it be, in your best estimate? How long would it 
be to complete that facility, and then to transport the 
plutonium to that site to consolidate it?
    Mr. Anderson. Again, without really going through that, it 
is hard to give you that. If I give you the kind of number like 
that, we would be back to where some of our failures have been 
in the past. And that is where, you know, when you look back to 
the packing and storage facility and some of our previous 
projects, you know, we have laid out a timeline for those 
projects, then as they start to stretch out it affects both the 
validity of that and our ultimate goal of consolidating that 
material.
    Mrs. Blackburn. Okay. And at present the total number of 
facilities that you're planning to use to store plutonium are 
what? What was that total number? I think you hit that earlier?
    Mr. Anderson. Currently in the environmental management 
program we have consolidated our plutonium down to two 
facilities, one at the Savannah River site and one at Hanford. 
The NNSA also has material at Los Alamos, Lawrence Livermore 
and Pantex.
    Mrs. Blackburn. Okay. Mr. Aloise, the plutonium at the 
Hanford site, can it be changed into a form that can be 
transported to the Savannah River site?
    Mr. Aloise. Well, it is our understanding that it could be 
shipped in its present form. But there is no approved 
Department of Transportation container to do that yet. But it 
can be--it could be stored in its present form as well as 
according to DOE officials. If they were to package it like the 
rest of the plutonium, we are told that it would be an estimate 
of another 1,000 containers to hold that material.
    Mrs. Blackburn. Okay. And how is Yucca Mountain a part of 
that process?
    Mr. Aloise. Well, Yucca Mountain is being talked about as 
the final disposition path. But, as we all know, that has not 
been decided yet.
    Mrs. Blackburn. And you see it as less risk to truck this 
across the country than to develop a recycling program?
    Mr. Aloise. No, ma'am, I don't. That is something we are 
calling for in DOE's plan to determine what that risk is.
    Mrs. Blackburn. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Whitfield. Thank you, Mrs. Blackburn. At this point I 
recognize Dr. Burgess for his 10 minutes of questioning.
    Mr. Burgess. Well, thank you, Chairman. I thank the 
witnesses for being with us this morning. The ability to 
transport that material across country, of course, is no small 
feat. And having seen, having had an opportunity to visit some 
of your facilities out in Albuquerque that does some of the 
transport, I was very impressed with the care of the people who 
worked there do take with that transport.
    But still it does strike me that going all of the way out 
to Savannah, Georgia, and then coming all of the way back to 
Yucca Mountain at some point in the future doesn't seem like a 
best use of manpower and resources.
    I get the impression from the GAO report, Mr. Aloise, that 
you're not satisfied that we are making satisfactory progress 
toward that end. Is that a fair statement?
    Mr. Aloise. That's a fair statement. We would have liked to 
have--when we began this review we expected to see a plan. But 
what we saw instead were individual site plans which in fact 
conflicted with each other. So not much progress is going to be 
made, we don't believe, until a plan is developed.
    Mr. Burgess. And is this a problem with management or a 
problem with oversight? Is it a problem where you need 
additional legislation, relief from legislation? What can this 
committee do to help that?
    Mr. Aloise. I think that question can be better directed to 
Mr. Anderson. But I believe they have begun the process with 
this committee, I mean, this planning committee.
    Mr. Burgess. I would like to give Mr. Anderson a chance to 
respond to that. I have never been a big believer in 
committees, but I sit on a committee now. So help us with that.
    Mr. Anderson. Certainly. I think with Secretary Bodman 
coming on board and making sure that we are looking at this 
from an integrated fashion, both across the NNSA side and the 
rest of the Department, is one of the major steps that we see 
in coming up with a comprehensive strategy. Prior to that there 
were a lot of stovepipes, a lot of barriers between the two 
organizations.
    You know, with that in mind, there--in any of the paths 
there may be some legislative relief or something, but I mean 
we are trying to identify those as risks.
    In other words, looking at any barriers, if we look at a 
technical basis, we are trying to say, if we were going to 
consolidate at any particular site, is there some legislative 
support we need or is there some legislative barrier, legal 
barrier that we need to have some relief on.
    So it really depends then on which one of those answers 
come through.
    Mr. Burgess. Well, I'm a big believer in eliminating 
stovepipes. Do you feel that the organization of this 
committee, the MNDCCC committee, that almost sounds like a 
stovepipe, doesn't it? Do you think that's going to help?
    Mr. Anderson. Absolutely. I mean, it is the form, it is 
designed to set up the form for all of the organizations that 
have all special nuclear materials to come together and discuss 
that disposition and consolidation, not just the plutonium 
disposition, plutonium materials, but any of our special 
nuclear materials since they were required for security.
    Mr. Burgess. Well, it won't help if we do not do the 
monthly teleconference calls and the things that were outlined 
in the charter.
    Mr. Chairman, can I ask that we be kept apprised as to the 
performance of those? I mean, those are performance measures 
that we can monitor from this committee. Would that be out of 
line to ask for that?
    Mr. Whitfield. No, that is certainly true, and we would 
like to maintain contact with you through our committee staff 
on that and are quite interested in a solution to this, and if 
we could set up a system where we could have some monthly 
contacts or at least quarterly with our staff, it would be 
quite helpful.
    Mr. Anderson. Absolutely.
    Mr. Burgess. Thank you, Mr. Chairman.
    Well, Mr. Anderson, for each year--my understanding is for 
each year that the Department of Energy is unable to remove 
plutonium out of the Hanford site to the Savannah River site 
these ongoing storage costs will be at least $85 million 
annually, give or take. Is that correct?
    Mr. Anderson. That is correct.
    Mr. Burgess. The continued storage will delay the 
Department's goal of accelerating cleanup at Hanford. Now a 
February 15, 2005, Department of Energy memo that I have here 
states that the plutonium at Hanford may remain there until the 
year 2035.
    Do you think that in a time of constrained budgets that the 
Department of Energy should be doing everything it can to 
remove the plutonium at Hanford as quickly as possible?
    Mr. Anderson. That is correct. The particular memo that you 
are referring to was to be used as just a planning basis for 
that site, because they had run up against their earlier plan, 
and they realized they would not have the plutonium off of the 
Hanford site by end of 2006.
    Mr. Burgess. I'm not absolutely sure the math is correct, 
so someone please check me. But if the plutonium remains at 
Hanford for 30 years that will cost the taxpayers $2.5 billion. 
Is it reasonable that we should keep the plutonium at Hanford 
for so long?
    Mr. Anderson. We do not believe so. That is one of the 
reasons we are looking hard at a comprehensive strategy for 
consolidation of the material.
    Mr. Burgess. What will be the impact if you can't get it 
done? If it doesn't happen, what would be the impact from 
failing to remove the plutonium from Hanford to the State of 
Washington?
    Mr. Anderson. Well, our failure to be able to consolidate 
plutonium, whether it is removed from Hanford or consolidated 
there or whatever site that we would end up with, would be a 
tremendous cost to the taxpayers. That's why we definitely want 
to do that.
    Mr. Burgess. Okay. I thank you for your candor.
    Dr. Eggenberger, just in the little time that I have left, 
we talked about the NMDCCC and in your testimony you state that 
this committee was created by DOE, is a positive development, 
but the committee does not have a clearly defined set of goals, 
objectives or schedule, nor has the committee to date provided 
a real strategic planning that is obvious to the Board.
    Again, I will just underscore that if it is proper, I would 
hope that you would keep this committee informed as going 
forward, that these performance measures are in fact met. 
Because I do not know as I sit here of any other way of telling 
that we are in fact on track for this.
    Is that a reasonable request, sir?
    Mr. Eggenberger. From us?
    Mr. Burgess. Yes.
    Mr. Eggenberger. Yes. Absolutely.
    Mr. Burgess. How much time do you think it should take for 
the committee to complete a strategic plan for all of the 
nuclear materials consolidation?
    Mr. Eggenberger. I don't know the answer to that, but I can 
talk about it a little bit.
    Mr. Burgess. Okay. We do that here in Washington.
    Mr. Eggenberger. The important thing I think is to define 
the problem. What they are attempting to do is what we call a 
large complex system. And it is. It is very complex. There is 
lots of constraints on it. It is necessary that these be 
defined well. They have not been in the past.
    One seems to get a bit cynical as one gets older, and I 
don't know why they should be able to do a good job of it now. 
It's a very difficult thing to do. But I hope they can. The one 
very important thing is I hope that they look at the paths 
forward in the light of special interests, political agendas, 
because these all affect the plan and can have an enormous 
affect on the output of it.
    And so the risks that are posed by these need to be 
considered very carefully. The technical aspects also in the 
past have been considered in a rather superficial manner, and I 
would hope that they are able to look at them in depth.
    And given that, I would say, to come up with this, it is at 
least a year or 2-year activity. That is my view.
    Mr. Burgess. I would say, well, temptation may devolve into 
cynicism. I hope you will not--this is terribly important work. 
And what we have seen at Los Alamos with the reduction in the 
nuclear arsenal--which I believe is appropriate and now we have 
to do the correct thing with those materials as they are no 
longer needed for national defense.
    Mr. Eggenberger. That is true. And we believe, as I said 
earlier, that there have been a lot of good things done since 
this thing first started taking shape in 1994. And so I hope 
that this time it's done, that we don't have to repeat this. 
We've repeated it now two or three times, and it certainly 
makes our job easier when the work gets done.
    Mr. Burgess. Yes, sir. So that's 11 years, from 1994 to 
now. Mr. Anderson, you heard Dr. Eggenberger say 1 to 2 years. 
Do you think that's a reasonable timeframe?
    Mr. Anderson. For a complete evaluation, yes, that could be 
a reasonable timeframe.
    Mr. Burgess. Could we push for one?
    Mr. Chairman, my time has expired. I will yield back. Thank 
you.
    Mr. Whitfield. Thank you, Dr. Burgess. At this time I 
recognize the gentleman from Washington, Mr. Inslee, for 10 
minutes.
    Mr. Inslee. Thank you.
    Mr. Aloise, I represent a district just north of Seattle 
and I used to represent the district where Hanford is located. 
So, just by way of introduction.
    What is your description of the general reasons why it does 
not appear that there is, at least from our perspective, 
adequate progress for completing this plan for permanent 
disposition? And I missed some of your earlier testimony. My 
apologies.
    Mr. Aloise. I mentioned earlier, actually when we started 
this review we were hoping to find a plan to analyze and see 
what DOE's path forward was. And instead, there were individual 
site plans which actually conflicted with each other. I can't 
tell you the exact reason why a plan hasn't been developed yet, 
but we are hopeful that one will be soon.
    Mr. Inslee. So, Mr. Anderson, do we need a central plan? 
And if we do, why don't we have one?
    Mr. Anderson. We absolutely do. We are pursuing that. As I 
mentioned earlier, one of the things that we would be looking 
at there is to make sure that this comprehensive plan does 
address all of the risks and barriers so we do not repeat some 
of the mistakes that we have in the past where we've started 
down a particular project, found out we had a barrier that was 
not able to be overcome, have to stop that project and restart 
down a different path.
    Mr. Inslee. So the obvious question is if Mr. Anderson says 
he has a plan, why can't Mr. Aloise find it?
    Mr. Anderson. We are developing a plan for that. We do not 
have that plan completed yet.
    Mr. Inslee. I misunderstood. I'm sorry. So what is the date 
for completion of that plan?
    Mr. Anderson. We do not have a date to complete the plan at 
this point. The Secretary has been very clear to tell us he 
wants to make sure whatever time it takes, that it is complete, 
that it advises all the risks, and that we can make commitments 
that the Department will live up to.
    Mr. Inslee. Could you give us some parameters? Let me tell 
you why I'm asking. There is some cost associated with this. 
There's some security issues associated with this. There's some 
long-term frustration in the State of Washington for failure to 
move forward. I would think you could give us some parameters 
of when that job could get done.
    Mr. Anderson. The prior question was looking at a 
reasonable timeframe, you know, within a year or 2, and 
obviously the urgency to make that closer to a year; but again, 
we will pursue this as quickly as we can, but making sure that 
we do have the right numbers. A lot of those numbers are the 
cost and the impacts that we will have at the different sites.
    Mr. Inslee. What would have to happen for Congress or 
somewhere else to make that a year and a half? If we wanted to 
give you a deadline of a year and a half, what would it take to 
accomplish that?
    Mr. Anderson. I'm sorry, I'm not sure I understand the 
question.
    Mr. Inslee. Would it take an additional appropriation? 
Would it take a congressional mandate? What would it take to 
get that job done and make sure it's done in a year and a half?
    Mr. Anderson. We don't believe it will take anything else 
from Congress to get that done in that timeframe.
    Mr. Inslee. Mr. Aloise, what do you see as downsides of 
delay in this process?
    Mr. Aloise. Well, there are obviously the additional 
storage costs, the security costs, and Hanford's inability to 
finish its cleanup. They wanted to accelerate the cleanup 
there, and that won't happen until we can get this material 
consolidated and off premises.
    Mr. Inslee. Mr. Anderson, as far as developing this plan, 
do you have any constraints in that regard? Is that one of the 
reasons for delay in getting this job done?
    Mr. Anderson. No, absolutely not. I guess the force and 
function, I would say, that's made us pursue this plan which I 
believe will be successful than in the past, is Secretary 
Bodman's emphasis on a complete comprehensive group. The 
creation and charter for the nuclear materials disposition and 
consolidation coordinating committee emphasizes a form for all 
people who have these type of materials to come together to 
make sure we know what the materials are, we evaluate what the 
options for disposition are, and we look at how to do the 
proper storage.
    One of the things that the GAO has indicated is that during 
their review what they saw were individual plans, in and of 
themselves not necessarily bad, but they weren't integrated, 
and it wasn't a higher-level comprehensive plan, and it was 
driving input to those individual site plans. So that's the 
reason for really pursuing a comprehensive plan.
    Mr. Inslee. Just one comment, you know we built the whole 
Hanford facility and devised this entire new technology in 
about 2 years, and now we are having difficulty within that 
period of time coming up with a plan to consolidate the wastes 
that were generated from that. We just urge you to expedite 
this process. Thank you.
    Mr. Whitfield. Thank you Mr. Inslee.
    Mr. Anderson, in April of this year, DOE decided to 
consolidate all the plutonium currently at the Savannah River 
site in one facility, Building 105-K. And I know our committee 
staff were down there visiting that site recently, and they 
reported that there were significant safety system upgrades 
needed as well as monitoring the surveillance capabilities and 
so forth before it could really be prepared. In your statement 
you note that beginning in 2007, DOE will upgrade the facility 
to perform all required surveillance and monitoring 
examinations to ensure safe storage of plutonium at the site.
    Do you already have an approved plan and the necessary 
funding to install those necessary upgrades to Building 105-K?
    Mr. Anderson. Actually we had a project that was approved 
to put those upgrades in the metallurgical building, and we're 
working with the Congress to modify that so that those--we're 
not putting any of those upgrades in. I refer to it as 235-F 
metallurgical building, but those upgrades now will go into the 
105-K and perform the safety upgrades.
    Mr. Whitfield. Do you have any idea how much the cost will 
be to upgrade that building?
    Mr. Anderson. It's in the project data sheet that's a part 
of that, but the total upgrades are around $100 million.
    Mr. Whitfield. Do you have sufficient funding now for that?
    Mr. Anderson. Currently we have a request in to move some 
funding to be able to support that. That has not yet been 
approved.
    Mr. Whitfield. Okay. Mrs. Blackburn in her questions talked 
quite a bit about recycling, and it's my understanding that 
recycling of the so-called pit plutonium or the weapon-grade 
plutonium is normally what we do on recycling. That's the 
material that we recycle. Is that a part of your plan that 
you're looking into is recycling that material?
    Mr. Anderson. Actually, a key cornerstone of the 
disposition is the mixed oxide program, which is to take the 
plutonium and convert it into a mixed oxide fuel and irradiate 
that in commercial reactors.
    Mr. Whitfield. Of course you had mentioned Europe, but I am 
supposing that Russia would be the other country that would 
have as much plutonium, or maybe more than we do. Would that be 
accurate?
    Mr. Anderson. The major driver for that program is a like 
disposition of their material also along that same path.
    Mr. Whitfield. Do you all have quite a bit of dialog with 
them about that subject?
    Mr. Anderson. Quite a bit.
    Mr. Whitfield. Okay. How would you describe the progress 
that they're making on this issue?
    Mr. Anderson. There's been some issues to work along that, 
both in that regard and design and some potential funding 
issues that are there, but it is progressing.
    Mr. Whitfield. But you do think that from Secretary 
Bodman's standpoint that this is a priority, to finish this 
plan, to come up with a solution to this issue? You view it as 
one of his top priorities?
    Mr. Anderson. Absolutely.
    Mr. Whitfield. Okay. Before we conclude the hearing I am 
going to ask unanimous consent, since there is no one here but 
me to object--I am not going to object--I am going to submit 
into the record the charter of the nuclear materials 
disposition and consolidation and coordinating committee, the 
requirements of that committee. Also a memo from Paul Golan 
regarding the implementation to Keith Kline regarding this 
design basis threat policy; and then also the memo from Clay 
Sell to James Rispolay--is that the correct pronunciation--
regarding the approval of the mission need for a plutonium 
disposition project.
    And the committee does intend to stay in touch with you all 
on this issue, with Secretary Bodman and you, Mr. Anderson. And 
we do thank you for testifying today. We appreciate the update, 
and we will be following with great interest. And if there is 
anything that we can be helpful with, we want to be; and, of 
course, we may be coming forth with additional questions.
    The record will remain open for 30 days in case any member 
has any additional material they would like to put in. With 
that, the hearing is concluded.
    [Whereupon, at 10:12 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]


<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>






</pre></body></html>
